No. 20-1479

 

IN THE
Supreme Court of the Gnited States

 

EDDIE HOUSTON, JR.,

Petitioner,
Vi
UNITED STATES,
Respondent.
CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on May 21, 2021, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioner on

counsel for each party to the above proceedings as follows:

Jeffrey L. Fisher Elizabeth B. Prelogar

O'Melveny & Myers LLP Acting Solicitor General

2765 Sand Hill Road United States Dep’t of Justice

Menlo Park, CA 94025 950 Pennsylvania Ave. NW

jlfisher@omm.com Washington, DC 20530-0001

(650) 724-7081 SupremeCourtBriefs@USDOJ.gov
(202) 514-2217

Counsel of Record for Petitioner Counsel of Record for Respondent

Eddie Houston, Jr. United States of America

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 21, 2021.

 

Counsel for Amicus Curiae
